 

 

IN THE
SUPREME COURT OF UNITED STATES

Isidro Sauceda, Petitioner,

Vv.

David Shinn, Director of Arizona Department of Corrections, and the
Attorney General of the State of Arizona, Respondents

On Petition For Writ Of Certiorari
To The Ninth Circuit Court of Appeals

PROOF OF SERVICE

Sandra Slaton, Counsel of Record
HORNE SLATON PLLC
6720 N. Scottsdale Road, Suite 285
Scottsdale, Arizona 85253
Telephone: (480 518-2154
slaton@horneslaton.com

February 21, 2021

 

 
PROOF OF SERVICE

I, Matthew Monaco, do swear or declare that on this date,
February 21, 2021, as required by Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope
containing the above documents in the United States mail property
addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3
calendar days.

The names and addresses of those of served are as follows:

Clerk of the Supreme Court of the United States
1 First Street N.E.
Washington, D.C. 20543

J.D. Nielsen

Assistant Attorney General
Capital Litigation Section
2005 North Central Avenue
Phoenix, Arizona 85004
CLDocket@azag.gov

I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 2224 day of February, 2021.

 
